                                                            AUDIT




 CAPITAL IMPROVEMENT PROJECTS
 ADMINISTRATIVE FUNCTIONS
 Procurement Deficiencies Plague the Virgin Islands
 Port Authority




Report No.: VI-IN-OIA-0004-2010                       September 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                  SEP 0 8 2010
Memorandum

To:        Anthony M. Babauta
           Assistant Secretary for Insular Affairs

From:      Mary L.  Kendall~£:j;)(4d~
           Acting Inspecto~   6en~~ I'.
Subject:   Final Audit Report "Capital Improvement Projects Administrative Functions:
           Procurement Deficiencies Plague the Virgin Islands Port Authority"
           (Report No. VI-IN-OIA-0004-2010)

        Our recent audit of the Virgin Islands Port Authority' s (Authority) administration of
capital improvement projects (see attachment) revealed program weaknesses that leave the
Authority vulnerable to fraud, waste, and mismanagement. Specifically, the Authority ' S
procurement and financial reporting deficiencies have resulted in inefficient and opaque
operations, as well as loss of Virgin Island Government (Government) revenues. The problems
we observed are not new, having been identified and reported on 5 years ago . We provided
recommendations then that have gone unheeded.

        Specifically, we found that the Authority regularly circumvented or inadequately
documented the procurement process in the issuance of its capital improvement projects. We
had, therefore, little or no assurance that contracts were issued to the most qualified, responsive,
and deserving contractors. Further, capital improvement files were generally disorganized and
incomplete. The files were in such disarray that we could not determine if the Authority followed
basic procurement procedures. The disorganization so impeded our audit that we were forced to
meet with the Authority ' S Executive Director and the Engineering Director in an attempt to
obtain missing documents. Despite our best efforts at this meeting, the Authority still could not
produce the documents that we requested. We therefore questioned over $5 .5 million in project
costs.

        In addition, we found a myriad of deficiencies in the Authority' S financial reporting, such
as inaccurate records of payments to contractors and service providers, unreported payments, and
non-issued tax forms. Those deficiencies resulted in $84.3 million in unreported income to
contractors and $12.6 million in taxes lost to the Virgin Islands Government.

        In his response to our draft report, the Governor of the Virgin Islands (Governor) agreed
that the lack of timely tracking of documentation impeded the Authority' S ability to prove its
compliance with basic procurement best practices. The response included input by the
Authority' s Executive Director, who agreed with four of the five recommendations, but took
exception to certain findings and conclusions in the report. Based on these responses, which are
included in the subject report, three recommendations to the Governor are considered resolved



                               Office of Inspecto r Gene ral I Was hi ngton, DC
and implemented, one remains unresolved, and one is resolved but not implemented. The status
of all recommendations is shown in appendix 6 of the attachment.

         One of the two recommendations to the Governor that require further action concerns
initiation and completion of projects without benefit of contracts. The Executive Director
maintains that the Authority used competitive contract procedures in all contracts recommended
by the Engineering Division; that formal contracts were issued for all work related to capital
improvement projects; and that the selection process related to the Crown Bay Dock and Retail
Development Project was documented. We are referring the implementation of this
recommendation to you for oversight. The Executive Director must provide evidence to the
Office of Insular Affairs (OIA) that the procurement process was followed.

        The unimplemented recommendation to the Governor concerns non-issuance of Internal
Revenue Service (IRS) Forms 1099. The Executive Director and Director of Administration and
Finance must provide copies of IRS Forms 1099 for contracts issued during the third quarter of
fiscal year 2010. Continuing compliance with Federal requirements regarding issuance of IRS
Forms 1099 and their submission to the Bureau of Internal Revenue is required.

        Due to the long-standing, pervasive nature of the deficiencies described in the subject
report, resolution and implementation of recommendations to the Governor may be in question.
We recommend, therefore, that OIA:

       1. Ensures that the Virgin Islands Government obtains from the Authority
          documentation that may demonstrate adherence to required procurement processes;
          determines whether such documentation supports the Executive Director’s non-
          concurrence; takes appropriate action in the absence of documentary proof (see report
          recommendation number 1); and that the Government obtains copies of IRS 1099s for
          contracts issued, as appropriate by quarter (see report recommendation number 5).

       Please provide us with your written response to this report, number VI-IN-OIA-0004-
2010, within 30 days. The OIA response should provide information on actions taken or planned
to address Authority provision of documentation that demonstrates that the required procurement
process was followed and of IRS 1099s for contracts issued during the third quarter of fiscal year
2010, target dates, and titles of the officials responsible for implementation. Please address your
response to:

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections and Evaluations
       U.S. Department of the Interior
       Office of Inspector General
       1849 C Street, NW., MS 4428
       Washington, DC 20240

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at (202) 208–5745.

Attachment
                                                            AUDIT

                                                           Attachment




 CAPITAL IMPROVEMENT PROJECTS
 ADMINISTRATIVE FUNCTIONS
 Procurement Deficiencies Plague the Virgin Islands
 Port Authority




Report No.: VI-EV-VIS-0003-2009                       September 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPAR         ENT OFTHE INTERIOR

                                                                                 SEP 0 8 2010
The Honorable John P. deJongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
St. Thomas, VI 00802

Re:    Final Audit Report, "Capital Improvement Projects Administrative Functions-
       Procurement Deficiencies Plague the Virgin Islands Port Authority"
       (Report No. VI-IN-VIS-0003-2009)

Dear Governor deJongh:

        This final report presents the results of our audit of administrative functions related to
capital improvement projects initiated by the Virgin Islands Port Authority (Authority). We
found procurement and financial reporting deficiencies much like those cited 5 years ago in our
Report No. V-IN-VIS-0001-2004, "Procurement Practices, Virgin Islands Port Authority,
Government of the Virgin Islands." Such longstanding deficiencies have led to an operation so
inefficient that transparency cannot exist and have resulted in lost Virgin Islands Government
revenues.

        We received your May 19, 2010 letter regarding the draft of this report, with its enclosed
response from the auditee (see appendix 1). We are pleased that you concur with the fact that the
lack of timely tracking of documentation impeded the Authority's ability to substantiate
compliance with basic procurement best practices. We also understand your hope that we would
be able to revise our draft report. Upon careful review of the auditee's input, however, we found
assertions in lieu of any new or exculpatory data (see appendix 2 for our response to the auditee).

        We offer, therefore, five recommendations designed to improve the performance of
administrative functions related to capital improvement projects in the Virgin Islands. Based on
your response to our draft report, we consider recommendation 1 umesolved; recommendations
2, 3, and 4 resolved and implemented; and recommendation 5 resolved but unimplemented.

        Please provide a response to this report by October 5, 2010 to our Caribbean Field Office,
Ron deLugo Federal Building - Room 207, St. Thomas, VI 00802. The response should
provide information on actions taken or planned to address findings related to recommendations
1 and 5. The response should also include target dates and titles of the officials responsible for
implementation.




                               Office of Inspector General I Washington. DC
       If you have any questions concerning this report, you may contact me at (202) 208-5745
or Mr. Hannibal M. Ware, Assistant Regional Manager, at (340) 774-8300.

                                                   Sincerely,


                                               7J(~cflJ
                                                   Mary L. Kendall
                                                   Acting Inspector General




                                                                                                2
Table of Contents
Why We Performed This Audit .............................................................................. 1
 Overview of the Virgin Islands Port Authority ................................................... 1
What We Found ...................................................................................................... 2
 Procurement Deficiencies .................................................................................... 2
 Financial Reporting Deficiencies ........................................................................ 4
Conclusion and Recommendations ......................................................................... 6
 Conclusion ........................................................................................................... 6
 Recommendations ............................................................................................... 6
Appendix 1: Governor of the Virgin Islands Response .......................................... 7
Appendix 2: Office of Inspector General Reply to Auditee Response ................. 19
Appendix 3: Scope and Methodology and Prior Coverage .................................. 21
 Scope and Methodology .................................................................................... 21
 Prior Coverage ................................................................................................... 21
Appendix 4: Capital Improvement Projects Renewed .......................................... 22
Appendix 5: Monetary Impact .............................................................................. 24
Appendix 6: Status of Audit Recommendations ................................................... 25
Why We Performed This Audit
We conducted this audit as part of our annual work plan, which requires
assessment of performance of administrative functions related to the initiation and
completion of Virgin Islands Port Authority (Authority) capital improvement
projects (see appendix 3 for scope, methodology, and prior coverage).

Overview of the Virgin Islands Port Authority
The Authority is an instrumentality of the Virgin Islands Government that
manages all airports and seaports, with the exception of the West Indian Company
Dock. The Authority’s Engineering Department manages all capital improvement
projects and related contracts for architectural, engineering, and construction
services. The Authority’s Director of Engineering is the custodian of contract files
for these projects, which are funded by federal and local grants, bond issuances,
and a variety of fees.

Between 1998 and 2008, the Authority recorded initiation of 109 capital
improvement projects, each of which required the hiring of various contractors
and service providers. These 109 projects totaled $211.7 million.




                                                                                  1
What We Found
The Authority’s administration of multi-million dollar capital improvement
projects leaves the Virgin Islands Government vulnerable to fraud, waste, and
mismanagement — as it has for many years. In particular, its failure to address
longstanding procurement and financial reporting deficiencies related to capital
improvement projects has precluded efficient operations and hampers the ability
to collect all Virgin Islands Government revenues.

Five years ago, we cited many of the same deficiencies identified in this audit.
The recommendations for corrective actions that we made then have been
ignored. The Authority continues to disregard its own internal rules and
regulations in the selection of contractors and the award of contracts for capital
improvement projects.

During this audit, we reviewed 12 capital improvements projects (see appendix
4). These projects totaled $86.2 million and included 118 contractors and service
providers. In terms of procurement deficiencies, we found that some projects were
initiated and completed without contracts in place to protect the Authority’s best
interest. In other projects, contract files were haphazardly maintained without
evidence to support actions taken. In terms of financial reporting deficiencies,
project costs were not accurately recorded. Further, IRS Forms 1099 were not
issued to ensure all payments to service providers were reported to the Internal
Revenue Bureau.

Procurement Deficiencies
Although the Authority has policies and procedures in place that require it to
competitively select contractors and service providers, we found that it does not
comply with those requirements. For example, the Engineering Department
routinely ignores the Authority’s detailed, 14-step process for ensuring
accountability and transparency (see Figure1). Further, we found the Authority’s
procurement filing system to be pervasively disorganized and its individual
project files to be incomplete. This failure of proper performance of
administrative functions permits inefficient operations, jeopardizes the
Authority’s financial interest, and increases the potential for fraud, waste, and
mismanagement.

Of the 12 capital improvement projects that we reviewed, nine evidence
procurement deficiencies. In those nine projects, worth $75 million, the Authority
either circumvented or inadequately documented the procurement process. We
were, therefore, unable to find any evidence that the required documents exist and
have no assurance that the Authority issued contracts to the most qualified,
responsive, and deserving contractors.




                                                                                     2
The most egregious example of circumvention concerns the Lindbergh Bay Park.
By classifying the project as “in-house,” the Authority avoided the normal
contracting process and retained control over $900,000 in project funds. The
Authority then used $443,300 of those funds to hire the “casual labor” of private
citizens. In other words, none of the casual laborers who worked on this project
was an Authority employee. Further, none provided services under a formal
contract. Finally, upon project completion, the former Executive Director of the
Authority (who also planned and managed the project) hired three of these private
citizens to work for the Authority. The three had received $394,400 of the
$443,300.


                   Authority Contract File Requirements
        1) Purchase Requisition
        2) Public Notice
        3) Mailing list of bidders
        4) Invitation for bids or request for proposals
        5) Bid abstract or record
        6) Determination of non-responsible bidder, when applicable
        7) Determination of inadequate response to bid, when applicable
        8) Evaluation of bids
        9) Notice of award to successful bidder and unsuccessful bidders
        10) Contract
        11) Noncompetitive determination, when applicable
        12) Emergency procurement determination, when applicable
        13) Cost-reimbursement contract determination, when applicable
        14) Basis for cost or price



Figure 1.

In terms of documentation, we found disorganization and incomplete files. Many
files had been strewn across all areas of the Engineering Department, including
empty cubicles and offices (see below). Overall, the majority of project files were
in such disarray that we could not determine if the Authority followed proper
procurement procedures.

This disorganization so impeded our audit that we were forced to meet with the
Authority’s Executive Director and the Engineering Director in an attempt to
obtain missing documents. Despite our best efforts at this meeting, the Authority
still could not produce the documents that we requested.




                                                                                    3
Figure 2. Project files strewn across cubicles.

In addition, many project procurement files are incomplete. We were forced to
work with copies of contracts because the Authority was unable to provide the
originals. Further, many files fail to document how contractors were selected or
whether they met basic requirements for conducting business in the Virgin
Islands. We provide two examples below of projects with incomplete files.

    •   Crown Bay Dock and Retail Development Project, worth $39 million. Of
        the 35 contracts involved in the development project, the Authority could
        not locate procurement files for 32, which were valued at $4.2 million.
    •   Crown Bay Dredging Project, worth $966,060. The procurement file for
        the primary contractor, which was paid $897,000, could not be located.
        Also, the Authority included contract wording that indicated the existence
        of two bidders rather than to document the selection process.

Financial Reporting Deficiencies
Our review of the Authority’s financial reporting revealed a myriad of
deficiencies, such as inaccurate records of payments to contractors and service
providers of $1.3 million, unreported payments, and non-issued tax forms. In the
case of the Enighed Pond Marine Terminal Project, the Authority reported that
$15.5 million was expended. In fact, we discovered that project costs of $16.5
million were expended — $1 million over the reported amount. Absent the
accurate recording of project costs, the Authority cannot have a true financial
picture, because it cannot properly capitalize its assets.

Moreover, during the past 10 years, the Authority has failed to:

    •   Prepare and issue required IRS Forms 1099 for any contractors and
        service providers who received payments over $600; and
    •   Report $84.3 million in payments made to contractors and other service
        providers.

This failure to follow financial reporting requirements hinders the Government of
the Virgin Islands from collecting all its taxes. Utilizing a conservative tax rate of


                                                                                     4
15 percent, the Virgin Islands Government potentially lost $12.6 million in much
needed tax revenues (see appendix 5) over this period.




                                                                                   5
Conclusion and Recommendations
Conclusion
Procurement best practices require that a properly documented procurement file
provide an audit trail from the initiation of the acquisition process to the
beginning of the contract. The file should provide a complete background,
including the basis for the decisions made at each step in the acquisition process.
A well-documented file should:

   •   Speak for itself, without need of interpretation;
   •   Support actions taken;
   •   Provide information for reviews and investigations; and
   •   Furnish essential facts in case of litigation.

The Authority fails to meet this standard even though it has rules and regulations
in place that require it to competitively select contractors and service providers,
ensure efficient operations, and protect its financial interests. The Authority does
not even record project costs accurately or comply with financial reporting
requirements. Its institutional inefficiency and poor procurement and financial
reporting practices leave the Virgin Islands Government subject to fraud, waste,
and mismanagement, as well as hinder the collection of all taxes owed.

Recommendations
To improve performance of administrative functions related to capital
improvement projects at the Virgin Islands Port Authority, we recommend that
the Governor of the Virgin Islands ensure that the Authority:

   1. Comply with the requirements to use competitive contract procedures and
      to issue formal contracts for all work related to capital improvement
      projects.

   2. Develop and implement a tracking system or checklist to make sure that
      procurement-related requirements are met for all contracts.

   3. Follow existing internal policies regarding the documents that should be
      maintained in contract and other procurement files.

   4. Record capital improvement project costs accurately.

   5. Issue IRS Forms 1099 to contractors and service providers and forward
      copies to the Internal Revenue Bureau.




                                                                                       6
Appendix 1: Governor of the Virgin
Islands Response



                                 ThE UrIJrED SrATES VIRGIN ISUNDS
                                           CIffItle Of TIE GIMRNOII
                                                (l(M'.ANUI!N'T1IOI.I!!"
                                        Charlotte AmaIle, V.I, 00S02
                                               340-714.0001




                                                 May 19, 2010




    Ms. Mary   I~   Kendall
    Acting inspectOr Geoeral
    United States Deportment of tile Interior
    Office ofthc Inspmor General
    Caribbean Field Office
    Ron deLugo Federal Building. Room 2m
    SL Thomas, Virgin hlands 00802

    Re:     Respouse by the Government of the VI.rgID Islands to United States Department or
           the lDterior, Office ofthelDl peetorGeneOlI'. (OlG) D ... ft Audit Report, Cspital
           Improvement Projects Admioistration FuoctioDJ, VII'giD Isiuub Fort Authority
           (Report No, VI-IN-VIS-0003-2009)


    Oear Ms. Kendall:

            I acknowledge receipt of the abovHeferenced draft audit report, which WlI5 lnIoslnitled
    with correspondence dated May 15,2010, Since the beginniog or my Adminisrratioo. I bave
    stressed the importance of Government accountability including the acc(Iuotability of an
    IIUtooomOUS govcl'l1lDClltal instrumcntality 3IIcb 118 tile Virgin lslaods Port Authority (VIPA or
    the Authority), I coOCW" with tile Office of Inspector General's conclusion that procurement ~
    practices require proper documentation throu&hout the: acquisition stage, and in the CIIlle oftbe
    VIPA. the IacJc of timely naeking!rul:h dooumenlll1ion impeded the VIPA ability to substantiate
    thei( compliance.

             Pursuant to my request, Mr_ Ke:nn Hobson, the Executive Director, on bebalf of the
    VlPA provided responses along with supporting documentation to the OlO's draft Audit Report
    fi.ndingI; and recommendations, Enclosed you will find these respomes to the draft audit report
    and the supporting documentation. It is my hope that the enclO5ed documents will provide




                                                                                                         7
Ms. Mary L. Kendall
May 19,2010
p"", 2

additiolllll infonnatioll that address many of the concerns posed in the draft oudit report, and
therefore,. the orG can inCOIpOIate the appropriate revisions.

       Thank you for affording the Govenunent of the Virgin Islands an opportunity to
comment on the DIG's draft audit report with respect to the isso.1e8 oonceming the Virgin Islands
Port Authority.




Enc1OS\1l'CS


pc:      Mr. Keno Hobson, Executive Director, Virgin Islands Port Authority
         Mr. Cassan Pancham, Chairperson, Virgin Islands Port Authority Governing Doard




                                                                                                    8
"




                                    VIRGIN ISLANDS PORr AUTHORITY

    Respon5e to draft audit report, Capital Improvement Projects Administrative Functions -
    Procurement Deficiencies Plague the Virgin Islands Port Authority (VI-lN-VIs-<xxJ3-2009, March
    2010)


    FINDINGS OJ PROCUREMENT PEFIOENCIES

    Although the Authority has policies and procedures In place that require competitive selection
    of IXInlf1H:to~ Hnd servir.l' pmvider~, the tJ. S.
                                                     Oepartm@nt of the Interior's Offict' of the
    Inspector General (OOI-OIG) fOi.lnd that the Autlloriw does not comply with those
    requirements. DOl-01G also found the Authority's procurement filing system to be disturbingly
    and pervasively disorganized ilnd its individual project files to be incomplete. The majority of
    project flIes were in such disarray that ool-OIG could not determine if the Authority followed
    prop~r procurement procedures.


    In addition, many project procurement files are incomplete. DOI·OIG was forced to work with
    copies of contracts because the Authority was unable to provide the originals. Many files fail to
    document how contractors were selected or whether they met basic requiremeots for
    conducting business in the Virgin Islands.

    Recommendations

       1. Ensure compliance with requiremNlts to use comp~t1tive contract procedures and to
          issue formal oontrJlds for all work related to Cilpitai improvement projects.

       1.. Ensure development and implementation of a trackine system or checklist to make sure
            that procurement related requirements are met for all contracts.

       3. Ensurl! adh~rence to existing internal policies regarding thl! documents that should he
          maintained in contract and other procurement files.

    Virgin Islands Port Authority's Response

    lbe Virgin Islands Port Authority (VIPA or the Authority) does nut cunrur with thl! finding. in
    general. More specifically, the Authority does not agree that It disregarded its own internal
    rules and regulations in the selection ot contractors and In awarding contracts for capital
    improvement projects.

    VIPA concurs, however, that the Engineering Division may not have kept all contract files III an
    organized manner as required by the Procurement Manual.




                                                                                                        9
1le'V1PA"R"'_IoVl_IN_V1~
POlIO   ZuU


Further, original contracts were not generally maintained in the procurement files. Accordingly,
in lieu of originals, copies of the (executed) contracts were provided.

With regard to eClCh of the contracts referenced by the Audit, the Authority followed Its own
procurement rules and regulations and Virgin Islands law asset out in 29 VIC Section 541 ef seq.
(the Authority's enabling statute).

With regards to the following spe-cific contr.lI:ts re ferenced in the Audit, the Authority attaches
hereto documents identified and described 3S supportive of the award of each rontract. These
documents may consist of such items as Board committee minutes, Board Meeting minutes,
actual rontract document.'), bid compari50n documents, Notkes of Award, Notices to Proceed,
etr_ In ~II c~ses there may oot be a single form containing indication of all the steps followed in
awarding Ih" umlrild, but th ...... is d .. ilrly lImple documentation supporting compliance in ea ch
In stance.

It should be noted that of the twelve (12) capital improvement projects r!Viewed, three (3)
were specifically id.mtifil!d by naml!: lindbergh Bay Park, Crown Bay Dock and Retail
Development Project, and the Crown Bay Dredging Project. These three (3) projects will be
covered by setting out the contracts related to each and the documents supporting each
contract (see Appendices I and II attached). The documentation for the other nine (9) projects
are available 10f review.

Recommendation 1: Cmnply with the requirements to use wmpetitive contract procedures and
to i55ue formal contracts for all work related to capitol improvement project5.

VIPA Response - All contracts recommended by the Engineering DivisiOn meet these
requirements. The Authority will continue this practle!!.

Recommendation 2: Develop and implement a trackinIJ sysfem          Uf   checklis! 10 make sure Ihut
procurement-related requirements are met/Orall contracts.

V!PA Response - Engineering has developed a contr~ct file checJ:li:;t th~t will be completed for
each contract and inserted in each contract file to ensure that the procurement requirements
for each project 3re met. Thl! Authority has also established a receipt for fil es (I.e. custody
receipt) to monitor all files taken by the legal Division and/or the auditors.




                                                                                                        10
n., YlPA'. Aes, ...... to Vl-lfoI-YlS ___ _
P"",l"'~


Recommendation 3: Follow existing Internal polici~5 regorcing the documents that .should be
maintained in contract and arh!!r procurem~nt files .

VIPA Respon5e • The checkli5t thilt will be utilized to en~ure compliance with procurement
requirements Identifies and enumerates the fourteen (14) items required to be in the project
file, in accordance with the Procurement Manual.

COrrective Actlon Pian

VIPA will utilize the checklist developed and efIsure that the contract files are maintained in
accordance with the requirements stipulated in the Procurement Manual.

VIPA will commence simultaneously executing at least three (3) original contracts for any
contractor with whom It is authorized to conduct business. One {I} orieinal will be maintained
in the procurement file in the Engineering Olvision, and one (1) original will be kept by the legal
DiviSion.

Due Date: 301 quarter - Fiscal Year 2010

Responsible Partle.s;: Executive Oirector, VIPA and Director of EnGineering, V1PA



fiNDINGS #2; FINANCIAL REPORTING DEFICIENCIES

DOl-DIG's review of the Authority's financial reportin!: revealed a myriad of deflCienrjl's, such
as inaccurate records of payments to contractors and ,ervice providers of $1.3 million,
unreported payments, and non·issued tax forms . Absent the accurate recording of project
costs, the Authority cannot have a !roe finand31 picture, because it cannot properly capitalize
its ~sscts.

During the past 10 years, t he Authority failed to:

     •    prepare and issue required IRS Form 1099 for any contractors and service providers who
          received payments over $600; and

     •    report $84.3 million in payment5 made to contractors and other service providers.

This failure to follow !Inandal reporting requirements hinders the Government Df the Virgin
Islands from collecting all Its taxes.




                                                                                                      11
Rt: VIP ...·' Rts,onsll0 YHN-Vls.«xa-l()09
Pll&e(of9


Recommendations

    4. Ensure accurate recordincof capital improvement project costs.

    5. Ensure issuance ot IRS Form 1099 to COntractors and service providers and submit
       copies lu the Internal Revenue Bureilu.

Virgin Island s Port Authority's Response

The VIPA concurs that it did not prepare IRS Form 1009 for contractors and 115 service
prOVid ers, but does not concur that $8~,300,OOO was unreported income to the Virein Islands
Government. Also, through the normal course of proces.sing payments, assets are normally
recorded acrurately. This Instance of underreported assct was an unusual occurrence where
the contractor was not paid directly by VIPA, but VIPA was the inheritor 01 the asset.

Ouring th~ years Oiudited, the Virgin IslOinds Port Authority pOiid Gross Receipt Taxes to the
Government of the Virein Islands, on any contract over $120,000 and any sine!e payment for
services rendered over $30,000; for .. total of $4,243,S63.86. Total revenues reported through
t he Gross Receipt reporting process to the Internal Revenue Bure~u p~ld by VIPA to the
providers were $1£16,089.096.50.

Recommendation 4: Record capital improvement praject costs accurately.

VIPA Response - The Authority's assets are normally recorded accurately. Through the normal
process, the correct value 01 the asset would be recorded because it flows through the system
from aa:ount.~ payable when the contractor is paid. However, ifthell' is another circumstance
where there is a third party involvement, the normal procedure will be enforced to ensure that
final documents are received to close out the asset.

Recommendation 5: Issue IRS Form 1099 10 contractors and service providers and forward
copies tu the Internal Revenue Bureau.

VlPA Response - The Authority concurs that it has lapsed in the issuance 01 1099·s. As was
stated during the 3udit, a plan is alll'ady in place to meet that requirement for calendar year
7.010. The Authority in implementing this compliance is also working on issuine Form 1099's for
2009 aggregating to approxim~tely $3 million during the 301 quarter of FY 2010. This process
will contInue to ensure issuance of Form 1099's to VIPA's major contractors. SOme 2009 Form
1099's have already been issued to-date for roughly $70.000.




                                                                                                  12
lie: VlP...•• Respo"",, 10 VHH-VlS-oo(s'2009
POleSof9


Corrective Ac;tioo Plan

VIPA will reinforce the procedure of havinc: accountinc: sillfl off on all capital projects before
payment is processed. even on capital Improvement project costs for projects with third party
Involvement.

The Authority will compLy with the Federa l requirements and issue Form 1099s annually, as
applicable. The required copy of the Form 1099 will also be fOlW<lrded to the Bureau of
Internal Revenue (aka Internal Revenue Bureau).

VIPA will comply with requirements for issuance of IllS Form 10995 and will continue to issue
those for 2009 in order to report payment s to its major contractors on Form 1099 to the
Bureau of Internal Revenue.

Implementat ion Date: 20<1 quart ..r - Fiscal 2010

Due Date: 3'" quarter -F iscal 2010 & on ·going

Responsible Parties: Executive Director, VIPA and Director of Administration & Finance. VIPA




                                                                                                     13
""" YIP"', ~ to Yl-lN-vtS.-J-lOO9

..... '''''
                                           APPENDIX 1

       VIPA Responses to specific paragrijphls) In the Draft DIG Audit IYHN-YIS=QQQ3=2(09)

Page 3, paragraph 2.: "the Authority either circumvented or inadequately documented the
procurement proa5S. We were, therefore, unable to find ony evidence thot the required
documents ellist and hove nu assurance thot the AuthOrity Issued contracts to the m05t
qualified, responsive, ond deserving controctors.·

Yes, the Engineering Division may not keep all contract flies In an oreanlz@dmannl'ras rl'qu ired
by the Procurement MarlUal, but nevertheless, a review of the projects reviewed by the
Auditors found that the Authority's policies were followtd as set out In the Procurement
Manual ar as directed by the Authority's Board uf 0Irf(:ton. Before a contract Is prepilrcd or
reviewed for legal suffltlency, all documents rellt!nc to hoyj the contractor was selected, along
with the Governing Board's approval, are provided to the legal Division. Each capital project
contr.rctar selection follows the process outl1ned in the Procurement Manual.

First, bids or prapouls ilre solicited in <ICCOfdartte with VlPA's Procurement Manual. Then, a
review of the bids or proposal received is conducted and a r@COmmendation Is milde to the
Executive DirectOl". The recommendation is then pre-senteci to the PrOjects and Operations
Committee of VlPA's Governi", Board, stipulating that the contractor recommended is the
lowest, responsive, and responsi>le bidder. The CommIttee's recommendation is forwarded to
the full Hoard and, if app~d, ~ contrKt award is m,de.

In evaluating bids from rontr.rctors, there are specifIC documents thllt must be submitted In
order for a bid to be considered responsive. A spreadsheet is prepar@d in reviewing the
documents submitted against the bid requirements.




                                                                                                    14
lie: V1PA'.1laj>onM: 10 YHN.VIs..GOOl-2OO9
P"fl'7of9


                                                 APPENDIX II

            VIP'"' Response re: Three CapitallmDrovement Projects specificallv id entified

UNDBERGH BAY PARK

~rhl! mast egregious example of circumvention concerns the Undbergh lJoy Par*.. By classifying
the project as ~in-house, ~ the Authority avoided the normal contracting proce5S and retained
control aver $900,000 in project funds.      W




To state that the park project is th e most egregious is a matter of opinion. The VIPA erected
the undbergh Bay Park project In two phases over a four year period. The project was referred
to as "In-house" because It was a VIPA team project where staff members of the Authority got
together ~nd used their trea t ivity to provide a publit f~cilitv far the enjoyment af the residents
of St. Thomas and its visitors. The work entailed rip-rap, excavation, construction, and
installation of fixtures and eqUipment. The Authority could not utilize its maintenance staff for
maJO!" oonstructlon work due to limitations In the union contract. The malntenana! staff can
only be used for preventativemailltenance.minor.lIId mJjor repairs, equipment installation
and other limited constructiun projects. Casuallabar with the assistance of the Port Authority
maintenanc~ staff was utilized to facilitat~ the build out of the ~ntire project. ·lhe projl!d.
Involved contribution of time and talent by members of the Authority's staff at no additional
cost to the Authority. The project was done in two phases:

Phase I

             1. place fill material to meet requirements for flooding (casual labor & staff)
             2. Place rock boulders for shore protection (revetment) a $150,000 value, materials
                 donated by Darlan Brin
             3. Construct restroom (casual labor)
             4. Build platform for Gazebo - concrete base {casual labor)
             S. Build platform slab for play system - poured concrete base (casual labor)
             6. Build four (4) concrete tables (for cooking ~nd grilling) (cilsu~llilbor)
             7. Repair surrace ror volleyball court (casual labor)
             B. Build two (2) concret e planters (Cilsuallabor)
             9. Build concrete platform for kid's basketball court (casual labor)
             10. Fence the park. (t:asu~llabor)
             11. Install bollards using timber from the old Ffederiksted Pier in parking area to
                 secure property {casuallaborl
             12. Install purchased Gazebo (casual labor & nat)
             13. Install play system (casual labor & staff)




                                                                                                       15
11.: VlPA'. ~tG VHN-VlS.00D3-2G09
pOloa"u


           14. Install basketball funnel (casual labor & staff)
           15. Build system for swings and install (casual labor & staff)

Phase II

           1. Site preparation (installation of plumbing to include intake pipe from the ocean
               and discharge to the gut) (casual labor)
           2. Build concrete platform (casual labor)
           3. Install turnstiles [casual Jabor & staff)
           4 . Install shoreline protection (casual labor)
           S. Build a pump & cont rol tlOUse [store staInless steel pumps) (casual labor)
           6. Build an enerev house (casual labor)
           7. ~ridge access across gut (casuall~bor)
           S. Sulld a tower "lighthousen {casual labor)
           9. Install water systems to Indude Fun Fountain Umbrella, Lemon Drops, fire Hose,
               and Bucket System (C<lSuallabor & staff)
           10. Sienaee (casual labor & staff)
           11. Installation of rubber tiles (ClIsuallabor & vendor)

The detail of the work involved Is listed and all the evidence Is available to be seen publicly. The
f~rJllty w~s ~ welcome addition to St. ThomOls and continues to be a facility enjoyed by the
general public. Three (3) of the seven (7) casual laborers were hired 00 OI temporOlry basis at
the end of the project by former Executive Director, Gordon Finch. This resulted from theIr
excellent skills shown in the construction of the park. These th ree (3) temporary f'mployees
eventually became permanent employees through the employment process of the Authority.
The labor cost over the four (4) year period for the casual labor employed was $378,71 7.00.
Previously, at the time of the Audit the personnel fi les could not bc found . The files have since
been located and are avail~ble for review_

CROWN BAY DOCK and RETAIL DEVELOPM ENT PROJECT

Contracts Issued t o subcontractors initially hired by Amerlc.m Bridge

At OIpproxim3tcly 95% completion, the Authority terminated I\merican Bridee as Contr<tCtor ilnd
entered into direct contracts with most of the subcontractors who hOld not completed thei r
scope of work under the prime contract, so long as their work had been determined to be
s3tisfactory. In c;lch inst3ncc the new direct contract was at a cost reflecting what was left to
be done under the prime contract. In no case did the cost of the direct contract Etllceed the
cost forworl< remaining to be done at the t ime of termination. In the case of subcontractors




                                                                                                       16
lie: VIP"', R _ t o VI-IN-VIS-OODl-2009
1';o1"Or~


wll!m~ work WilS completed fully under Ihe fIm~rican [)ridge contra ct. the Authority did not
enter into contr~cts WIth them. In the case of subcont ractors whose work was determined to
be defective, the Authority opted to seek independent companies to do the repair and/or
remllining work.

HOur review 0/ the Authority's financial reporting revealed a myriad of defidencies, such as
inaccurate records of payments to contractors and service f;fOviders of $1.3 million unreported
payments, and nan·issued tax forms. In the case of the fnighed Pond Morine Terminal Project,
the AuthorIty reported $15.5 million was expended. In fact we discovered that proj/'!ct cost of
$16.5 mil/ian were expended - $1 millian over the reported amount. Absent the accurate
recording of project costs, the Authority connat have a true financial picture, because it connat
properly capitalize its assets.-

The Authority concurs with the findings regarding the Enighed Pond Marine Terminal Project.
The fina l cost is SI6.S million. Through the audit it was rcvealcd that the final two (2.) payment
records (Payment #2.7 & 28) were not channeled through th~ Finance/Accounting Office, rather
Ihe requesb wen:' sent directly to the Public FinaneI': Authority (PFA) for processing. The
normal feed was the Engineering Office certified the pay document for the work completed;
the Accounting Office cheded the documents for the mathematical accuracy and retained a
copy of the pay documents to be added to thc construction in progress. The documents were
then forward"d to PFA for p~ym"nt and PFA thcn scnt b~ck copies of paid vouchers to the
Authority. Due to failure of the documents beine; sent to ALcounting. the final payments were
nol recorded to Ihe assets. Under normal drcumstances, if the payments were made directly
by the Authority rather than a third party source, the assets would not haVl:! Iwen
undercapitalized. The circumstances surrounding the project were not within the normal VIPA
project process.

CROWN BAY DREDGING PROJECT

"Crown Boy Dredging Project worth $966,060.00. The procurement file for the primary
contractor, which wo! paid $897,000.00, could not be located. A/50, the Authority chose to
include contract wording thot indicotes the elfistence of two bidders rather than to document
the selection process."

Thl':re was ~ file 10000ted In the Engineering OffIce th~t conlilned the contract and the payment
files for the Crown Bay Dredging Project. In this particular case, the procureml':nt process was
handled by the Executive Director. Aftcr reviewing his files and that of the Legal Division, it
was found that there were copies of correspondence showing that propoS31s were sought and
that the Governing Board of the Authority was polled to select the particul~r contractor.
Thus, the selection process was in fact documented. These correspondences are enclosed.




                                                                                                      17
                        Virgin IsJands Port Authority
                               P.O. Box 301707
                         St. Thomas, VI 00803-1707




Respectfully submitted, th is 19'" d~y of M~y 2010.




                                                      Kenn Hob500
                                                      Executive Director
                                                      Virgin IsI~nds Port Authority




                                                                                      18
Appendix 2: Office of Inspector
General Reply to Auditee Response
The Governor of the Virgin Islands responded to this report in its draft form on
May 19, 2010 (see appendix 1). The Governor agrees that the lack of timely
tracking of documentation impeded the Authority’s ability to prove its compliance
with basic procurement best practices and encloses input by the Authority’s
Executive Director.

The Executive Director, while agreeing with four of the five recommendations,
took exception to certain findings and conclusions in the report. Specifically, the
Executive Director maintains that the Authority used competitive contract
procedures in all contracts recommended by the Engineering Division and that
formal contracts were issued for all work related to capital improvement projects.
Moreover, he takes issue with our opinion that Lindbergh Bay Park is the “most
egregious example of circumvention” of the procurement process that we found.
Finally, the Executive Director states that the selection process related to the
Crown Bay Dock and Retail Development Project was documented.

After conducting 8 months of reviews, we could not state that the policies and
mandates of the Authority’s Board of Directors have been followed. We are no
more able to verify the Executive Director’s contentions after receiving his
response to the Draft Report.

Selection of contractors: We recognize that the Authority may have, in many
cases, followed procurement rules and regulations. In any given instance,
however, we can have no assurance that the Authority issued contracts to the most
qualified, responsive, and deserving contractors due to the lack of procurement
process documentation. In fact, the contract documents provided as part of the
Executive Director’s response included: unsigned copies of contracts we already
possess in signed form; a copy of a request for proposal that differs from the one
in our files that it represents; and additional evidence that indicates that the
Authority may have overpaid a contractor by $215,000. None of these documents
serve to refute our assessment.

Circumvention: No question can exist that the Lindbergh Bay Park project
exemplifies circumvention of the procurement process. The Executive Director’s
contention is that this project was performed “in-house.” We disagree. By the
Executive Director’s own admission, “casual labor . . . was utilized to facilitate . .
. the entire project.” Opinion applies only to our assessment of the project as the
“most egregious” that we found.

We hope that the Authority will be able to overcome many of their long-standing
deficiencies by implementing all the recommendations contained in this report.


                                                                                    19
Their full implementation will be required to ensure an efficient and transparent
operation.




                                                                                    20
Appendix 3: Scope and Methodology
and Prior Coverage
Scope and Methodology
This audit’s objective was to assess Virgin Islands Port Authority performance of
administrative functions related to capital improvement projects. We performed
our work from March to October 2009 and interviewed officials, reviewed
procurement and payment files, and visited project sites on St. Thomas, St. John,
and St. Croix. We also studied procurement industry best practices and evaluated
internal controls related to the management of capital improvement projects.

Our scope was limited by the Authority’s inability to locate all procurement files
and its inaccurate recording of project costs. We were, therefore, forced to
determine actual costs based on a review of payment documents. We also
reviewed payment documents obtained from the Public Finance Authority and
studied procurement industry best practices.

We conducted this audit in accordance with the “Government Auditing
Standards” issued by the Comptroller General of the United States. Those
standards require that we plan and perform an audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We tested the validity of records and
conducted other auditing procedures as necessary under the circumstances. We
believe that the work performed provides a reasonable basis for our conclusions
and recommendations based on our audit objectives.

Prior Coverage
In March 2005, we issued Report No. V-IN-VIS-0001-2004, “Procurement
Practices, Virgin Islands Port Authority, Government of the Virgin Islands.” The
report revealed that the Authority failed to:

   1. Follow procurement related requirements for all contracts;
   2. Exercise due care in planning capital improvement projects;
   3. Establish record control procedures to ensure the security of procurement
      files; and
   4. Comply with:
          a) requirements for competition and the issuance of formal contracts
               related to capital improvement projects;
          b) internal policies regarding types of documents that should be
               maintained in contract and procurement files; and
          c) the Virgin Islands Code requirement that gross receipts be
               deducted from payments made to service providers and
               contractors.


                                                                                   21
Appendix 4: Capital Improvement
Projects Renewed
                              Number of         Total Project
   Project Name                                     Cost
                          Contractors/Service
                              Providers         (U.S. Dollars)
          Ann
          Abramson                          7       4,694,467.04
          Pier


          CEK Airport
          Taxiway
                                            3       9,403,735.11

          Crown Bay
          Marine
          Terminal                        58       39,292,329.93



          Enighed Pond
                                            6      16,588,505.35


          Phase 1
          Security
          Fencing
                                            1         202,442.10



          Commercial
          Business Park
                                            1         315,000.00



          Lindbergh Bay
          Park
                                          26          871,075.37




                                                                 22
                            Number of         Total Project
Project Name                                      Cost
                        Contractors/Service
                            Providers         (U.S. Dollars)
       CEK Airport
       Renovation
                                          5
                                                  2,851,579.23



       Crown Bay
       Dredging
                                          7         966,060.33


       CEK Airport
       Taxiway                            2      12,064,679.60
       Rehabilitation


       Cruz Bay Pier
       Expansion
                                          1          46,568.75



       STT-
       Waterfront
       Plan
                                          1         287,903.48



            TOTALS:                    118       87,584,346.29




                                                               23
Appendix 5: Monetary Impact
                   Questioned Costs

                      $5,540,300

   Virgin Islands Government — Unrealized Tax Income

                UNREPORTED INCOME
                      $84,300,000

                  Potential Taxes Lost

                      $12,600,000




                                                       24
Appendix 6: Status of Audit
Recommendations

Recommendation      Status                 Action Required

1                Unresolved      We will be referring this issue to the
                                 Office of Insular Affairs for oversight
                                 and to ensure compliance. Please
                                 provide them with any requested
                                 documentation that demonstrates that
                                 the required procurement process
                                 was followed.
2                Resolved and    None
                 Implemented
3                Resolved, and   None
                 Implemented
4                Resolved and    None
                 Implemented
5                Resolved, Not   Provide copies of 1099s for contracts
                 Implemented     issued during the third quarter of fiscal
                                 year 2010.




                                                                       25
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
